                                                                    OFFICE OF INVESTIGATIONS

                                                          CLOSEOUT MEMORANDUM




                 The National Science Foundation, OIG opened this investigation as a result of a proactive
                 investigative review conducted of grants awarded under the "Alliance for Minority Participation
                 Program" (AMP) involving substantial cost-share and sub-contract amounts. An NSF grant'
                 awarded to one ~niversit?was selected in the review to ensure compliance with the applicable
                 laws, regulations, and award conditions.

                 A request was sent to the University asking for cost share invoices and supporting documentation
                 for a certain time period A review of documentation provided noted a discrepancy with the
                 cost share amount that had been certified and reported to NSF for one of the years and the current
                 amount reported to NSF OIG. The University advised that the amount certified and reported to
                 NSF for a particular year was in fact an incorrect amount. They explained that the finance office
                 has two separate financial database systems and that the discrepancy was due to retrieval of
                 financial data from the wrong database.

                 Due to this discrepancy, the University was asked to conduct a review and certify to NSF that all
    I            federal awards with cost sharing for the past two years are accurate, contributed to only one
I
I
                 award, and from appropriate sources. The University responded and provided a list of all Federal
                 awards with cost sharing and certified that all amounts reported are accurate.

                 Since the University has explained the discrepancy found in its cost share reporting to NSF and
                 has provided information reviewed cost sharing amounts on other federal awards and certified
                 that the amounts reported are accurate, additional investigative efforts are not required.
I
                  Accordingly, this case is closed.




                  ' Cooperative Agreement
                   Year three of the award (time period 10129104 - 10129105).



        NSF OIG Form 2 (1 1/02)
